CERTIFICATE OF SERVICE
No. TBD
Noel L. Smith
Petitioners)
v.
Diana Smith Carusos et al.
Respondent(s)
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the Noel
L. Smith Petition for Writ of Certiorari, by mailing three (3) true and correct copies of the same
by USPS Priority mail, postage prepaid for delivery to the following addresses:
Nora K. Bushfield
Nora Kalb Bushfield, PC
3128 Clairmont Road, NE
Atlanta, GA 30329
404-248-1444

nora@atlantalaw.net
Counselfor Diana Smith Carusos et al.

fr^\I ' 4
If f
if

f

yUi

V(,

wL

Dan Abramovich
August 16, 2019
SCP Tracking: Smith-3128 Clairmont Road, NE-Cover White

